February 12, 2021
Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Ralph Claiborne Walsh, Jr. v. Lisa Hodge, et al.
Petition for a Writ of Certiorari
CERTIFICATE OF SERVICE

Dear Mr. Harris:
I, Aditya Dynar, counsel for Petitioner, do hereby declare that on February 12,
2021, as required by Supreme Court Rule 29.5, I have served by first-class mail, postage
pre-paid, the Petition for a Writ of Certiorari on counsel for each party to the above
proceeding. All parties required to be served have been served as per the attached
Service List.
Executed on February 12, 2021.

Aditya Dynar
Counsel for Petitioners

1225 19th Street NW Suite 450, Washington DC 20036 (202) 869-5210

www.NCLAlegal.org

NCLA
Page 2 of 2

SERVICE LIST
Counsel for Petitioner:
Aditya Dynar
Counsel of record
Caleb Kruckenberg
New Civil Liberties Alliance
1225 19th St. NW, Suite 450
Washington, DC 20036
(202) 869-5210 | Adi.Dynar@NCLA.onmicrosoft.com
Counsel for Respondents:
Lanora Christine Pettit
Office of the Attorney General
Office of the Solicitor General
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700 | Lanora.Pettit@oag.texas.gov
Rola Daaboul
Office of the Attorney General
General Litigation Division
P.O. Box 12548 (MC 019)
Austin, TX 78711-2548
(512) 936-1322 | Rola.Daaboul@oag.texas.gov

